1a
APPENDIX A
REVISED September 30, 2020
IN THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT

No. 19-10761

ROBERT COLLIER,
Plaintiff-Appellant
v.
DALLAS COUNTY HOSPITAL DISTRICT, doing
business as Parkland Health & Hospital System,
Defendant-Appellee

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CV-3362
Before KING, JONES, and COSTA, Circuit Judges.
PER CURIAM:*
*
Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5TH CIR. R.

2a
Robert Collier, an African American employee
in Dallas County’s Parkland Health and Hospital
System, filed suit under Title VII after he was
allegedly fired for insubordination. Collier claims that
he was in fact fired in retaliation for complaining of
racial discrimination and that the hospital was a
hostile work environment. The district court granted
summary judgment for the hospital, finding that the
rationale given for Collier’s termination was not
pretextual and that his working environment was not
sufficiently abusive to constitute a hostile work
environment. We affirm.
I.
A.

Collier worked as an operating-room aide in
Dallas County’s Parkland Health and Hospital
System (Parkland) between January 2009 and July
2016, where he mainly prepared operating rooms for
patients. In August 2014, Collier received a written
warning after he allegedly failed to follow the
procedures for proper radio usage and failed to notify
his supervisor when he was leaving the department. A
year later, Collier received a “Final Warning” after he
allegedly failed to respond to multiple radio calls and
punched a wall. Collier denies being called on his radio
during these occasions but admits to punching the
wall.1
47.5.4.
1

Parkland has acknowledged that the radios were not
always working, and Collier notes that he was once nearly
disciplined for not using his radio on a day when he had not been
given access to one.

3a
Around this time, Collier complained about
racial discrimination at Parkland. For example, he
submitted complaints to Parkland’s telephone hotline
stating that African American employees were treated
worse than Hispanic and Caucasian employees, and
he later filed another internal complaint making
similar allegations. Collier also reported that the Nword was scratched into an elevator, and that two
swastikas were drawn on the wall in a storage room
that he frequented. Collier reported this graffiti to
Richard Stetzel, who oversaw Collier’s supervisor,
Javier Reyes, and to human resources.2 Collier also
claimed that a nurse called him “boy” and that other
nurses called other African American employees “boy”
as well.
Parkland maintained that, although it
investigated numerous complaints from Collier, none
of them involved racially offensive comments or
graffiti. Nonetheless, Stetzel acknowledged that he
was aware of the swastikas in the storage room and
that he had planned to paint over them within six
months of first seeing them.
In June 2016, Collier had a disagreement with
Reyes, his supervisor, which eventually led to his
termination. According to Reyes, Collier refused to
work in Pod D, one of the four stations where
operating-room aides worked, and Collier later cursed
at Reyes, threatened him, and “became very
aggressive, violent, [and started] hitting the wall.”3
2

The N-word remained for several months before being
scratched out, and the swastikas remained for approximately
eighteen months.
3
Collier acknowledges disagreement with his supervisor
but denies being insubordinate. For example, Collier’s brief

4a
Other nearby employees confirmed that Collier
refused to work in Pod D, despite their attempts to
convince him to do so, and that Collier exhibited
threatening and aggressive behavior. The Dallas
County Hospital District Police Department was
summoned, and Collier was issued a citation for
assault and was escorted off the property.
Following this incident, Parkland concluded
that Collier had been insubordinate by refusing to
work in Pod D and failing to follow the instructions of
two additional supervisors, which ultimately
“impact[ed] patient care.” Four Parkland officials,
none of whom were Reyes, decided to terminate
Collier, and he was fired on July 12, 2016.4
B.

In December 2017, Collier filed suit against
Parkland for violations of Title VII of the Civil Rights
Act and the Texas Employment Discrimination Act,
claiming racial discrimination and retaliation. As
noted, Collier claimed that he was retaliated against
for reporting racial discrimination and claimed that
the presence of two swastikas and the N-word on
hospital walls, as well as being called “boy,” made
Parkland a hostile work environment.
states that “Defendant terminated Plaintiff in June 2016 due to
an argument he had with Supervisor Reyes regarding Supervisor
Reyes continually assigning Plaintiff to isolated Pod D, despite
Defendant’s policy to rotate the ORAs through the different
Pods.”
4
Employee Relations Advisor CaSaundra Henderson,
Employee Relations Director Arthur Ferrell, Interim Vice
President Brandon Bennett, and Direct of Nursing Richard
Stetzel were responsible for Collier’s termination.

5a
Parkland moved for summary judgment, which
the district court granted. The district court found
that Collier could not establish either: (1) that
Parkland’s rationale for terminating Collier—i.e.,
insubordination—was pretextual; or (2) that Collier’s
working environment “was sufficiently hostile or
abusive to create a racially hostile work environment.”
This appeal followed.
II.

“We review a district court’s grant or denial of
summary judgment de novo, applying the same
standard as the district court.” Thomas v. Johnson,
788 F.3d 177, 179 (5th Cir. 2015) (quoting Robinson v.
Orient Marine Co., 505 F.3d 364, 365 (5th Cir. 2007)).
“Summary judgment is appropriate if ‘the pleadings,
depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to a
judgment as a matter of law.’” Robinson, 505 F.3d at
366. Accordingly, all “reasonable inferences should be
drawn in favor of the nonmoving party.” Tolan v.
Cotton, 572 U.S. 650, 660 (2014).
III.
A.

To establish a prima facie case of retaliation
under Title VII, a plaintiff must indicate that: “(1) he
participated in an activity protected by Title VII; (2)
his employer took an adverse employment action
against him; and (3) a causal connection exists
between the protected activity and the adverse
employment action.” McCoy v. City of Shreveport, 492
F.3d 551, 556-57 (5th Cir. 2007) (describing the

6a
burden-shifting framework set forth in McDonnell
Douglas Corp. v. Green, 411 U.S. 792, 802 (1973)).
Once a prima facie case is made, the employer must
then “articulate a legitimate, nondiscriminatory or
nonretaliatory reason for its employment action.” Id.
at 557. This burden is “only one of production, not
persuasion, and involves no credibility assessment.”
Id. If the employer satisfies this burden, “the plaintiff
then bears the ultimate burden of proving that the
employer’s proffered reason is not true but instead is
a pretext for the real discriminatory or retaliatory
purpose.” Id. This requires the plaintiff to “rebut each
. . . nonretaliatory reason articulated by the employer,”
id., and to establish “that the adverse action would not
have occurred ‘but for’ the employer’s retaliatory
motive,” Feist v. La. Dep’t of Justice, 730 F.3d 450, 454
(5th Cir. 2013); see also Moore v. Eli Lilly & Co., 990
F.2d 812, 815-16 (5th Cir. 1993) (“To demonstrate
pretext, the plaintiff must do more than cast doubt on
whether the employer had just cause for its decision;
he or she must show that a reasonable factfinder could
conclude that the employer’s reason is unworthy of
credence.” (cleaned up)).
B.

We conclude that Parkland offered legitimate,
nondiscriminatory reasons for Collier’s termination,
such as insubordination. See, e.g., Rochon v. Exxon
Corp., No. 99-30486, 1999 WL 1234261, at *3 (5th Cir.
Nov. 22, 1999) (“Violation of a work-rule is a
legitimate,
nondiscriminatory
reason
for
termination”). Accordingly, to prevail on his
retaliation claim, Collier must demonstrate that these
rationales were pretextual, see McCoy, 492 F.3d at
557, and that his complaints of racial discrimination

7a
were a but-for cause of his termination, see Feist, 730
F.3d at 454. Although there are disputed facts
regarding his radio usage and his disagreement with
Reyes, Collier indisputably punched a wall, received a
citation for assault, and was determined to be
insubordinate.5 Collier may quarrel with the specific
details of these events, but he ultimately admits that
insubordination could constitute a terminable offense,
and he offers no evidence indicating that Parkland’s
rationales were pretextual. Cf. McCoy, 492 F.3d at 557
(“[T]he plaintiff must rebut each . . . nonretaliatory
reason articulated by the employer.”). Collier does not,
for example, assert that other employees who were
similarly insubordinate received different treatment,
or that other similarly situated employees were fired
for pretextual reasons. While Collier alleges that
Reyes, his supervisor, had a retaliatory intent, four
other individuals were responsible for his termination.
Collier does not explain how these other individuals
acted with a retaliatory intent or how Reyes’s
retaliatory intent and role as a “critical person
involved,”
rather
than
Collier’s
observed
insubordination, was the cause of his termination.
Accordingly, there is no fact issue regarding the but5

Collier insists that he was not insubordinate, but there
is not a genuine dispute of material fact regarding whether
Parkland could have concluded that he was insubordinate. As
noted, several observers reported his insubordination, which
influenced Parkland’s decision to terminate him. Collier does not
refute these witness reports and admits to arguing with his
supervisor. Such conduct qualifies as insubordination. See, e.g.,
Insubordination, Black’s Law Dictionary (11th ed. 2019) (“An act
of disobedience to proper authority . . . .”).

8a
for cause of Collier’s termination, and Collier has
failed to establish that his firing was pretextual.6
IV.
A.

To establish a hostile-work-environment claim
under Title VII, a plaintiff must prove that:
(1) [he] belongs to a protected group; (2)
[he] was subjected to unwelcome
harassment;
(3)
the
harassment
complained of was based on race; (4) the
harassment complained of affected a
term, condition, or privilege of
employment; [and] (5) the employer
knew or should have known of the
harassment in question and failed to
take prompt remedial action.

Hernandez v. Yellow Transp., Inc., 670 F.3d 644, 651
(5th Cir. 2012) (quoting Ramsey v. Henderson, 286
F.3d 264, 268 (5th Cir. 2002)). The harassment must
be “sufficiently severe or pervasive to alter the
conditions of the victim’s employment and create an
abusive working environment,” and it cannot be
“measured in isolation.” Ramsey, 286 F.3d at 268
(citations omitted). To determine whether a work
environment is actionably hostile, “all of the
circumstances must be taken into consideration,” such
6

For these reasons, we need not address Parkland’s
argument that part of the retaliation claim is time-barred.
Nonetheless, Parkland’s argument is inapposite. The statutory
limitations period does not “bar an employee from using the prior
acts as background evidence in support of a timely claim,” which
Collier does here. Nat’l R.R. Passenger Corp. v. Morgan, 536 U.S.
101, 113 (2002).

9a
as “the frequency of the discriminatory conduct; its
severity; whether it is physically threatening or
humiliating, or a mere offensive utterance; and
whether it unreasonably interferes with an employee’s
work performance.” Hernandez, 670 F.3d at 651
(citation omitted). “[T]he work environment must be
‘both objectively and subjectively offensive, one that a
reasonable person would find hostile or abusive, and
one that the victim in fact did perceive to be so.’” Id.
(quoting Faragher v. City of Boca Raton, 524 U.S. 775,
787 (1998)). Moreover, “[t]he alleged conduct must be
more than rude or offensive comments [or] teasing.”
Hockman v. Westward Commc’ns, LLC, 407 F.3d 317,
326 (5th Cir. 2004). “These standards for judging
hostility are sufficiently demanding to ensure that
Title VII does not become a ‘general civility code.’”
Faragher, 524 U.S. at 788 (citation omitted).
B.

Collier relies on three main facts to support his
hostile-work-environment claim: (1) a nurse called
him “boy”; (2) the N-word was scratched into an
elevator, and Parkland failed to removed it for months
despite his complaints; and (3) two swastikas were
drawn on the walls of a room that he worked in, and
Parkland waited eighteen months to paint over them
despite his complaints.
As Collier rightly observes, other courts have
found that the prolonged duration of racially offensive
graffiti, especially once it has been reported, could
militate in favor of a hostile-work-environment claim.
See, e.g., Watson v. CEVA Logistics U.S., Inc., 619
F.3d 936, 943 (8th Cir. 2010) (“[T]he key difference
between graffiti and a racial slur should not be
overlooked: the slur is heard once and vanishes in an

10a
instant, while graffiti remains visible until the
employer acts to remove it.” (internal quotation marks
omitted)); see also EEOC v. Rock-Tenn Servs. Co., 901
F. Supp. 2d 810, 827 (N.D. Tex. 2012) (“[I]f the graffiti
remains over an extended period of time, or the
employer’s response is repeatedly ineffective . . . , a fact
question arises as to the reasonableness of the
employer’s response . . . .” (citing Tademy v. Union Pac.
Corp., 614 F.3d 1132, 1149 (10th Cir. 2008))). As
Collier notes, the N-word remained for several months
before being scratched out, and the swastikas
remained for approximately eighteen months, despite
Parkland’s knowledge.
Moreover, other courts of appeals have found
instances where the use of the N-word itself was
sufficient to create a hostile work environment. See,
e.g., Ayissi-Etoh v. Fannie Mae, 712 F.3d 572, 580
(D.C. Cir. 2013) (Kavanaugh, J., concurring) (“As
several courts have recognized, . . . a single verbal (or
visual) incident can . . . be sufficiently severe to justify
a finding of a hostile work environment.”); Rodgers v.
W.–S. Life Ins. Co., 12 F.3d 668, 675 (7th Cir. 1993)
(“Perhaps no single act can more quickly ‘alter the
conditions of employment . . . ’ than the use of an
unambiguously racial epithet such as [the N-word] by
a supervisor.” (citation omitted)).
Though disturbing, the particular facts of this
case—the two instances of racial graffiti and being
called “boy”—are insufficient to establish a hostile
work environment under our precedent. For example,
we have found that the oral utterance of the N-word
and other racially derogatory terms, even in the
presence of the plaintiff, may be insufficient to
establish a hostile work environment. See, e.g., Dailey

11a

v. Shintech, Inc., 629 F. App’x 638, 640, 644 (5th Cir.
2015) (no hostile work environment where a coworker
called plaintiff a “black little motherf—r” and
threatened to “kick his black a—s”); Frazier v. Sabine
River Auth., 509 F. App’x 370, 374 (5th Cir. 2013)
(finding that use of the N-word, the word “Negreet,”
and a noose gesture “were isolated and not severe or
pervasive enough” to create a hostile work
environment); Vaughn v. Pool Offshore Co., 683 F.2d
922, 924-25 (5th Cir. 1982) (use of the N-word, “coon,”
and “black boy”).
The conduct that Collier complains of was not
physically threatening, was not directed at him
(except for the nurse’s comment), and did not
unreasonably interfere with his work performance. Cf.
Hernandez, 670 F.3d 651. In fact, Collier admitted
that the graffiti interfered with his work performance
by only one percent. Moreover, Collier does not argue
that he felt humiliated by the graffiti, nor would the
record support such an assertion. Accordingly, on the
record before us, Collier’s hostile-work-environment
claim fails because it was not “sufficiently severe or
pervasive to alter the conditions of the victim’s
employment and create an abusive working
environment.” Ramsey, 286 F.3d at 268 (citation
omitted).
V.

For the foregoing reasons, we AFFIRM the
judgment of the district court.

12a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ROBERT COLLIER,
Plaintiff,
VS.
DALLAS COUNTY
HOSPITAL § DISTRICT,
d/b/a PARKLAND
HEALTH & HOSPITAL
SYSTEM,
Defendant.

§
§
§
§
§
§
§
§
§
§
§
§
§

Civil Action No. 3:17-cv-3362-D

MEMORANDUM OPINION
AND ORDER
In this employment discrimination action in
which plaintiff alleges claims for race discrimination,
hostile work environment, and retaliation in violation
of Title VII of the Civil Rights Act of 1964 (“Title VII”),
42 U.S.C. § 2000e et seq. and the Texas Commission
on Human Rights Act (“TCHRA”),1 Tex. Lab. Code
1

As the court noted in King v. Enterprise Leasing Co. of
DFW, 2007 WL 2005541 (N.D. Tex. July 11, 2007 ) (Fitzwater,
J.): “Chapter 21 was entitled the Texas Commission on Human
Rights Act until the abolishment of the Commission on Human
Rights. In 2004, the ‘powers and duties’ of the Commission on

13a
Ann. § 21.001, et seq. (West 2015), defendant Dallas
County Hospital District d/b/a Parkland Health &
Hospital System (“Parkland”) moves for summary
judgment. For the reasons that follow, the court
grants Parkland’s motion and dismisses this action by
judgment filed today.
I
Plaintiff Robert Collier (“Collier”), who is
African American, was employed at Parkland
Memorial Hospital2 as an Operating Room Aide
(“ORA”) from January 5, 2009 through July 12, 2016.3
As an ORA, Collier was subject to Parkland’s Time
and Attendance Corrective Action Guidelines
(“Attendance Guidelines”), which address employee
violations of its Standards of Attendance Policy
(“Attendance Policy”). Under the Attendance
Guidelines, an employee incurs a preset number of
Human Rights were transferred to the Texas Workforce
Commission Civil Rights Division.” Id. at *1 n.1 (quoting Tex.
Dep’t of Criminal Justice v. Guard, 2007 WL 1119572, at *2 n.3
(Tex. App. 2007, no pet.) (not designated for publication)). As in
King, the court for clarity will refer to these claims as brought
under the TCHRA.
2

Parkland Memorial Hospital is owned and operated by
defendant Parkland. Because a distinction between Parkland
and Parkland Memorial Hospital is unnecessary for purposes of
this opinion, the court will refer to both as “Parkland.”
3

In deciding defendant’s motion for summary judgment,
the court views the evidence in the light most favorable to
plaintiff as the summary judgment nonmovant and draws all
reasonable inferences in his favor. See, e.g., Owens v. MercedesBenz USA, LLC, 541 F.Supp.2d 869, 870 n.1 (N.D. Tex. 2008)
(Fitzwater, C.J.) (citing U.S. Bank Nat’l Ass’n v. Safeguard Ins.
Co., 422 F.Supp.2d 698, 701 n.2 (N.D. Tex. 2006) (Fitzwater, J.)).

14a
points for each unscheduled absence, unapproved
absence, incomplete shift, or tardiness. The
Attendance Guidelines also prescribe the type of
corrective action to be taken—verbal warning, written
warning, final warning, and termination—based on
the amount of points the employee has incurred
during the previous rolling 12-month period. During
his employment, Collier was also subject to Parkland’s
Corrective Action Policy, which governs the discipline
of employees for substantive work violations
unrelated to absences, such as violations of Parkland
policies and procedures and/or poor work performance.
Like the Attendance Guidelines, the Corrective Action
Policy provides recommended guidelines for
progressive discipline—verbal warning, written
warning, final warning, and termination—based on
the violation at issue.
During 2013 and 2014, Collier applied for six
different department promotions through Parkland’s
job posting and for two different positions outside of
the department.4 Although three of the positions for
which Collier applied were ultimately canceled,
Collier’s applications for the remaining five positions
were all denied, allegedly on the basis that Collier was
ineligible for a promotion or reassignment under
Parkland’s Reclassification Procedure5 because he had
4

Collier applied for the following positions: ORA III, on
August 29, 2013; ORA II, on September 10, 2013; Radiology Unit
Aide, on October 7, 2013; ORA II, on December 3, 2013; Asset
Management Technician I, on January 10, 2014; ORA III, on
January 21, 2014; ORA II on July 3, 2014; and ORA III, on
October 30, 2014.
5

Under Parkland’s Reclassification Procedure

15a
received a written or final warning during the 12
months preceding each of his applications.6
Collier contends that, during roughly this same
time period, he complained about Parkland’s
discriminatory practices “multiple times.” P. Br. 5. For
example, on July 26, 2013 Collier submitted a
complaint to Parkland’s 1-800 hotline because he
believed he was not being treated the same as his
Caucasian coworkers, he was “having issues” with
Operating Room Director Richard Stetzel (“Stetzel”),
and he believed that Stetzel was treating African
American employees differently from Hispanic and
Caucasian employees. Id.
On August 25, 2014 Collier received a written
warning after he allegedly failed to follow the
procedure for radio usage and failed to notify his

[t]o be eligible for reassignment to another position
within Parkland, all Parkland employees, regardless of
status . . . [c]annot have received a written or final
warning in the previous twelve months, (this includes
Attendance and Performance and Behavior Corrective
Actions)[.]
D. App. 346.
6

It is undisputed that, during his employment at
Parkland, Collier received 26 Corrective Action Reports for
absences and tardies in violation of Parkland’s Attendance
Policy, including the following: a written warning, on January 25,
2013; a written warning, on February 7, 2013; a final warning,
on May 22, 2013; a verbal warning, on September 9, 2014; a
written warning, on October 2, 2014; a written warning, on
November 7, 2014; a written warning, on January 27, 2015; and
a written warning, on March 6, 2015. In addition, as discussed
below, Collier received a written warning for performance issues
on August 25, 2014.

16a
supervisor when leaving the department.
Corrective Action Report states, inter alia:

The

[o]n this day he was observed by
management to be socializing on another
floor and not available to perform his
duties. Mr. Collier was called multiple
times on the walkie-talkie and on the
[Operating Room (“OR”)] overhead
paging system to come to the OR office.
He did not respond via radio, nor did he
come to the office when requested.
D. App. 132.
On July 9, 2015 Collier filed an internal
complaint alleging that African American employees
were not given the same opportunities to earn higher
pay or be promoted. Collier complained that he and
two other African American employees, Otha Davis
(“Davis”) and Curtis Amison (“Amison”), had applied
for promotions but were not selected, and that less
experienced non-African American employees had
been promoted instead.7
On August 24, 2015 Collier received a final
warning for allegedly failing to follow the procedure
for radio usage by not responding to multiple calls on
the radio from his supervisor8 and for exhibiting
7

Employee Relations Advisor CaSaundra Henderson
investigated Collier’s complaint and found that, contrary to
Collier’s report, Amison and Davis had been promoted from an
ORA II to ORA III in February 2015. She also found that Collier
had not been promoted for a job posting he applied for in July
2014 because he was ineligible to be considered under Parkland’s
Reclassification Procedure due to a written counseling for
attendance.
8
Collier denies that his supervisor, Jose Reyes, called

17a
inappropriate behavior by punching an OR wall
“numerous times in frustration.”9 D. App. 138. Collier
was advised that “[c]ontinued noncompliance
regarding
adherence
of
[Parkland]
and/or
departmental policies may result in additional
corrective action, not to exclude termination.” Id.
On November 3, 2015 Collier called Parkland’s
employee hotline to reiterate that he had been “having
issues” with Stetzel, and to report that he was “now on
the final warning and he believe[d] that [Stetzel] [was]
trying to create an issue to cost [Collier]’s job.” P. Br.
5. Collier contends that, on May 2, 2016, he “called the
hotline
yet
again
because
of
Defendant’s
discriminatory conduct. He complained about [ORA
Supervisor Jose Reyes (“Reyes”)], and that the
department was unprofessional.” Id.
On June 30, 2016 an altercation between
Collier and Reyes resulted in Collier’s being removed
from the Parkland premises and ultimately
terminated. According to Collier, he and Reyes had a
disagreement, and Reyes pushed a bed into Collier.
When Collier complained about Reyes’s conduct and
about where he was assigned to work, Reyes told
Collier to present his complaint to Stetzel or go home.
Collier then punched a wall in anger. He contends that
while he was looking for Stetzel, the police were called
“[b]ecause [Collier] was making different kind of
comments about how frustrated he was with
management.” P. App. 66.

him on his radio on August 24, 2015.
9

An incident report dated August 5, 2015 states that
Collier admitted that he had hit the wall in frustration.

18a
Parkland offers a different version of the events
of June 30, 2016. According to Parkland, Reyes had
assigned Collier to work in OR Pod D, but Collier
refused to do so. After a brief verbal altercation,
Collier and Reyes went to OR Unit Manager Nuray
Kuloglu’s (“Kuloglu’s”) office. Kuloglu reported that
Collier was visibly upset during the meeting and told
her that he was not going to work in Pod D because he
wanted to work in Pod B instead. Kuloglu told Collier
that he needed to work in his assigned area. Later that
same morning, Reyes observed Collier talking to
another ORA in Pod A. Reyes told Collier that he
needed to return to Pod D and help the staff turn over
an operating room. According to Parkland, Collier
yelled at Reyes; stated that Reyes was not his “f—ing
daddy”; yelled “[y]ou’re gonna get it. You’ve got
something coming”; and began to walk aggressively
toward Reyes with his fists closed. D. Br. 7. Parkland
maintains that Director of PeriOperative Surgery
Radiology Nursing Margie Caramucci overheard
Collier and Reyes and brought them into her office
where she explained that Collier needed to follow
Reyes’s assignment. After the verbal altercation with
Collier, Reyes returned to Kuloglu’s office and
reported the incident. Together, they called the
Parkland Police Department, which issued Collier a
citation for assault and escorted him off of the
property, instructing him not to return until further
instructed.
After Collier was escorted off the Parkland
premises, Employee Relations Advisor CaSaundra
Henderson (“Henderson”) and Employee Relations
Director Arthur Ferrell (“Ferrell”) were informed
about the altercation between Reyes and Collier. They
investigated the incident, reviewed all of the

19a
statements they received, and met with Stetzel and
Interim Vice President Brandon Bennett (“Bennett”)
to determine the appropriate course of action. They
determined that Collier had failed to follow his
supervisor’s directive to work in Pod D and had failed
to follow the instruction of two additional leaders,
thereby impacting patient care. Because Collier had
previously been counseled and received a written
warning and final warning, Ferrell and Henderson
concluded that Collier’s insubordination warranted
termination, consistent with Parkland’s Corrective
Action Policy, and recommended that Collier be
terminated. Bennett and Stetzel approved the
recommendation, and Collier’s employment with
Parkland was terminated on July 12, 2016.
On January 20, 2016 Collier filed with the
Equal
Employment
Opportunity
Commission
(“EEOC”) a Charge of Discrimination alleging race
and color discrimination and retaliation. After
exhausting his administrative remedies and receiving
a right to sue letter, Collier brought the instant
lawsuit against Parkland, alleging claims for race
discrimination, hostile work environment, and
retaliation, in violation of Title VII and the TCHRA.10
Parkland now moves for summary judgment, and
Collier opposes the motion.

10

In his complaint, Collier originally named Parkland
and Dallas County as defendants and brought claims under Title
VII, the TCHRA, and 42 U.S.C. § 1981. In his amended
complaint, however, Collier abandoned his § 1981 claim and has
omitted Dallas County as a defendant.

20a
II
When a party moves for summary judgment on
claims on which the opposing party will bear the
burden of proof at trial, the moving party can meet its
summary judgment obligation by pointing the court to
the absence of admissible evidence to support the
nonmovant’s claims. See Celotex Corp. v. Catrett, 477
U.S. 317, 325 (1986). Once the moving party does so,
the nonmovant must go beyond his pleadings and
designate specific facts showing there is a genuine
issue for trial. See id. at 324; Little v. Liquid Air Corp.,
37 F.3d 1069, 1075 (5th Cir. 1994) (en banc) (per
curiam). An issue is genuine if the evidence is such
that a reasonable jury could return a verdict in the
nonmovant’s favor. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986). The nonmovant’s failure to
produce proof as to any essential element of a claim
renders all other facts immaterial. See TruGreen
Landcare, L.L.C. v. Scott, 512 F.Supp.2d 613, 623
(N.D. Tex. 2007) (Fitzwater, J.). Summary judgment
is mandatory if the nonmovant fails to meet this
burden. Little, 37 F.3d at 1076.
For claims or defenses on which the moving
party will bear the burden of proof at trial, to be
entitled to summary judgment the movant “must
establish ‘beyond peradventure all of the essential
elements of the claim or defense.’” Bank One, Tex.,
N.A. v. Prudential Ins. Co. of Am., 878 F. Supp. 943,
962 (N.D. Tex. 1995) ( Fitzwater, J.) (quoting Fontenot
v. Upjohn Co., 780 F.2d 1190, 1194 (5th Cir. 1986)).
This means that the movant must demonstrate that
there are no genuine and material fact disputes and
that it is entitled to summary judgment as a matter of
law. See Martin v. Alamo Cmty. Coll. Dist., 353 F. 3d

21a
409, 412 (5th Cir. 2003). “The court has noted that the
‘beyond peradventure’ standard is ‘heavy.’” Carolina
Cas. Ins. Co. v. Sowell, 603 F.Supp.2d 914, 923-24
(N.D. Tex. 2009) (Fitzwater, C.J.) (quoting Cont’l Cas.
Co. v. St. Paul Fire & Marine Ins. Co., 2007 WL
2403656, at *10 (N.D. Tex. Aug. 23, 2007) (Fitzwater,
J.)).
III
Collier alleges that Parkland discriminated
against him on the basis of race, in violation of Title
VII and the TCHRA. Under Title VII,11 it is unlawful
for an employer “to discriminate against any
individual with respect to his compensation, terms,
conditions, or privileges of employment, because of
such individual’s race, color, religion, sex, or national
origin.” 42 U .S.C. § 2000e-2. Because Collier relies on
circumstantial evidence to support his discrimination
claims, they are properly analyzed under the familiar
McDonnell Douglas12 burden-shifting framework.
Smith v. City of St. Martinville, 575 Fed. Appx. 435,
438 (5th Cir. 2014) (per curiam).
As modified, the McDonnell Douglas framework
consists of three stages. First, Collier must establish a
prima facie case of discrimination, which “creates a
presumption
that
[Parkland]
unlawfully
discriminated against [him].” Tex. Dep’t of Cmty.
Affairs v. Burdine, 450 U.S. 248, 254 (1981). To
establish a prima facie case of discrimination under
11

“[T]he law governing claims under the TCHRA and
Title VII is identical.” Shackelford v. Deloitte & Touche, LLP, 190
F.3d 398, 403 n.2 (5th Cir. 1999) (citation omitted).
12

(1973).

McDonnell Douglas Corp. v. Green, 411 U.S. 792

22a
the McDonnell Douglas framework, Collier must show
that
(1) he is a member of a protected class,
(2) he was qualified for the position at
issue, (3) he was the subject of an adverse
employment action, and (4) he was
treated less favorably . . . than were other
similarly situated employees who were
not members of the protected class,
under nearly identical circumstances.

Lee v. Kan. City S. Ry. Co., 574 F.3d 253, 259 (5th Cir.
2009) (citing Abarca v. Metro. Transit Auth., 404 F.3d
938, 941 (5th Cir. 2005) (per curiam)).
Second, if Collier establishes a prima facie case,
the burden shifts to Parkland to articulate a
legitimate, nondiscriminatory reason for the
employment action taken against him. See St. Mary’s
Honor Ctr. v. Hicks, 509 U.S. 502, 506-07 (1993).
Parkland’s burden is one of production, not proof, and
involves no credibility assessments. See, e.g., West v.
Nabors Drilling USA, Inc., 330 F.3d 379, 385 (5th Cir.
2003).
Third, if Parkland meets its production burden,
Collier may prove intentional discrimination by
proceeding under one of two alternatives: the pretext
alternative or the mixed-motives alternative. See
Rachid v. Jack in the Box, Inc., 376 F.3d 305, 312 (5th
Cir. 2004) (age discrimination case); see also Vaughn
v. Woodforest Bank, 665 F.3d 632, 636 (5th Cir. 2011)
(Title VII race discrimination case). Under the pretext
alternative, Collier must “offer sufficient evidence to
create a genuine issue of material fact . . . that
[Parkland’s] reason is not true, but is instead a pretext

23a
for discrimination[.]” Rachid, 376 F.3d at 312 (citation
and internal quotation marks omitted). Under the
mixed-motives alternative, he must offer sufficient
evidence to create a genuine issue of material fact
“that [Parkland’s] reason, while true, is only one of the
reasons for its conduct, and another motivating factor
is [Collier’s] protected characteristic[.]” Id. (citation
and internal quotation marks omitted).
“Although intermediate evidentiary burdens
shift back and forth under this framework, ‘[t]he
ultimate burden of persuading the trier of fact that the
defendant intentionally discriminated against the
plaintiff remains at all times with the plaintiff.’”
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 143 (2000) (alteration in original) (quoting
Burdine, 450 U.S. at 253).
IV
The court begins with Collier’s claim that
Parkland discriminated against him, in violation of
Title VII and the TCHRA, when it failed to promote
him to the various positions for which he applied
between August 29, 2013 and October 30, 2014.
A
Parkland moves for summary judgment,
contending, inter alia, that Collier failed to timely
exhaust his administrative remedies as to this claim.
“It is well settled that courts may not entertain claims
brought under Title VII as to which an aggrieved party
has not first exhausted his administrative remedies by
filing a charge of discrimination with the EEOC.”
Kretchmer v. Eveden, Inc., 2009 WL 854719, at *3
(N.D. Tex. Mar. 31, 2009) (Fitzwater, C.J.) (citing
Taylor v. Books A Million, Inc., 296 F.3d 376, 378-79

24a
(5th Cir. 2002); Bernard v. ATC VanCom, 2005 WL
139110, at *2 (N.D. Tex. Jan. 20, 2005) (Fitzwater, J.)),
aff’d, 374 Fed. Appx. 493 (5th Cir. 2010). In states such
as Texas, which provide a state administrative
mechanism to address claims of employment
discrimination, a Title VII plaintiff must file a charge
of discrimination with the EEOC within 300 days after
learning of the conduct alleged. See 42 U.S.C. § 2000e5(e)(1); Griffin v. City of Dallas, 26 F.3d 610, 612 (5th
Cir. 1994). A complaint under the TCHRA “must be
filed not later than the 180th day after the date the
alleged unlawful employment practice occurred.” Tex.
Lab. Code Ann. § 21.202(a).13
It is undisputed that Collier filed his Charge of
Discrimination on January 20, 2016. Accordingly, to
the extent Collier’s failure to promote claim under
Title VII is based on discrete acts that occurred prior
to March 26, 2015, and to the extent his failure to
promote claim under the TCHRA is based on discrete
13

The Supreme Court recently held, in Fort Bend County,
Texas v. Davis, ___ U.S. ___, 2019 WL 2331306 (U.S. June 3,
2019), that the exhaustion requirement of Title VII is a
mandatory procedural rule, “not a jurisdictional prescription
delineating the adjudicatory authority of courts,” resolving a
conflict among the courts of appeals over whether Title VII’s
charge-filing requirement is jurisdictional. Id. at *4, 6. It is
unclear whether, under Texas law, exhaustion of administrative
remedies is still treated as “jurisdictional.” See Black v. Dallas
Cty. Cmty. Coll. Dist., 2017 WL 395695, at *4 n.7 (N.D. Tex. Jan.
30, 2017) (Fitzwater, J.) (comparing cases). Because treating the
exhaustion requirement as an affirmative defense places a
greater burden on Parkland and does not alter the outcome, the
court will assume, for purposes of this memorandum opinion,
that exhaustion under the TCHRA, like exhaustion under Title
VII, is an affirmative defense that Parkland must establish prove
beyond peradventure to be entitled to summary judgment.

25a
acts that occurred prior to July 24, 2015, Collier did
not properly exhaust his administrative remedies.
Parkland has adduced undisputed evidence
that the only positions for which Collier applied
during his employment are the following: ORA III
position, on August 29, 2013; ORA II position, on
September 10, 2013; Radiology Unit Aide position, on
October 7, 2013; ORA II position, on December 3,
2013; Asset Management Technician I position, on
January 10, 2014; ORA III position, on January 21,
2014; ORA II position, on July 3, 2014; and ORA III
position, on October 30, 2014. Parkland moves for
summary judgment on the ground that Collier had
concluded that he had been passed over for promotions
prior to March 26, 2015, and that because his failureto-promote claims are based on discrete events that
occurred outside the 300-day statutory window (for
Title VII) and 180-day statutory window (for the
TCHRA), Collier’s failure-to-promote claims must be
dismissed as time-barred.
In his response, Collier neither contends nor
produces evidence that he was denied a promotion
within 180 or 300 days of his filing his Charge of
Discrimination. Instead, Collier posits that
[a]s all of the discrimination that
Plaintiff suffered from was “cumulative”
and part of a pattern and practice of
discrimination, all of Plaintiff’s claims
are timely. Plaintiff has alleged several
acts of discrimination as part of
Defendant’s pattern and practice within
the statutory window. Plaintiff was
subjected to racial graffiti within the
statutory
window,
and
he
was

26a
terminated within the statutory window.
Therefore, all of Plaintiff’s claims are
timely.
P. Br. 10. The court disagrees.
In National Railroad Passenger Corp. v.
Morgan, 536 U.S. 101 (2002), the Supreme Court held
that “[a] discrete retaliatory or discriminatory act
‘occurred[,]’” for purposes of Title VII’s exhaustion
requirement, “on the day that it ‘happened,’” and that
“[a] party, therefore, must file a charge within either
180 or 300 days of the date of the act or lose the ability
to recover for it.” Morgan, 536 U.S. at 110; see also id.
at 113 (“discrete discriminatory acts are not actionable
if time barred, even when they are related to acts
alleged in timely filed charges.”). Discrete
discriminatory acts include “termination, failure to
promote, denial of transfer, or refusal to hire.” Id. at
114 (emphasis added). Although Collier is correct that
his “charge alleging a hostile work environment claim
. . . will not be time barred so long as all acts which
constitute the claim are part of the same unlawful
employment practice and at least one act falls within
the time period,” id. at 122 (emphasis added), he has
provided the court no basis to conclude that this
“continuing violation” theory also applies under the
facts of this case to his failure-to-promote claims.
Accordingly, because Parkland has established
beyond peradventure that Collier failed to timely
exhaust his administrative remedies with respect to
his Title VII and TCHRA failure-to-promote claims,
the court concludes that Parkland is entitled to
summary judgment dismissing these claims.

27a
B
Alternatively, the court holds that Parkland is
entitled to summary judgment on Collier’s failure-topromote claims because Collier has failed to meet his
prima facie burden.
To make a prima facie showing that he was
denied a promotion based on his race, Collier must
demonstrate that (1) he was not promoted, (2) he was
qualified for the position he sought, (3) he fell within
a protected class at the time of the failure to promote,
and (4) Parkland either gave the promotion to
someone outside of that protected class or otherwise
failed to promote Collier because of his race. See, e.g.,
Clemmer v. Irving Indep. Sch. Dist., 2016 WL
1161784, at *11 (N.D. Tex. Mar. 22, 2016) (Fitzwater,
J.) (citing Autry v. Fort Bend Indep. Sch. Dist., 704
F.3d 344, 346-47 (5th Cir. 2013), aff’d sub nom. Chen
v. Irving Indep. Sch. Dist., 689 Fed. Appx. 379 (5th
Cir. 2017). It is undisputed that Collier is a member of
a protected class and that he was rejected for the
positions to which he applied. Parkland moves for
summary judgment on the ground that Collier has
failed to demonstrate both that he was qualified for
the positions he sought and that the positions were
given to someone outside of Collier’s protected class.
Collier applied for eight different promotions or
jobs at Parkland between August 2013 and October
2014. Parkland has adduced undisputed evidence that
three of the eight positions for which Collier applied
were canceled, and that, therefore, no one was hired.
For the remaining five positions for which Collier
applied, it is undisputed that four were filled by a
member of Collier’s protected class, and Collier has
failed to adduce any evidence that the fifth was filled

28a
by someone outside of his protected class. Because
Collier has failed to argue or adduce any evidence that
Parkland promoted someone outside of Collier’s
protected class or that Parkland otherwise failed to
promote Collier because of his race, the court
concludes that Collier has failed to make the requisite
showing with respect to the fourth element of his
prima facie case. Accordingly, Parkland is entitled to
summary judgment on Collier’s Title VII and TCHRA
failure-to-promote claims.
V
The court next considers Parkland’s motion for
summary judgment on Collier’s race discrimination
claim to the extent this claim is based on allegations
that Collier was denied overtime, unfairly disciplined,
and terminated.
A
Parkland moves for summary judgment on
Collier’s denial-of-overtime claim on the following
grounds: Collier cannot produce any evidence that he
was, in fact, denied overtime; it is undisputed that he
worked over 179 hours of overtime during his
employment with Parkland; and Collier cannot
produce any evidence that similarly situated nonAfrican American ORAs were given more
opportunities to work overtime. Collier responds with
evidence that he complained to Human Resources that
he had been passed over for raises on the basis of race.
He also contends that “[t]here is ample evidence that
Supervisor Reyes was discriminatory, and yet the
discretion to allow overtime was his only,” P. Br. 18,
and that Collier “was denied compensatory
opportunities by a discriminatory Supervisor who (as

29a
evidenced in his hiring policies) heavily favored White
and Hispanic workers and discriminated against
Black workers,” id. at 19.
“‘[C]onclusory allegations, speculation, and
unsubstantiated assertions are inadequate to satisfy’
the nonmovant’s burden in a motion for summary
judgment.” Ramsey v. Henderson, 286 F.3d 264, 269
(5th Cir. 2002) (quoting Douglass v. United Servs.
Auto. Ass’n, 79 F.3d 1415, 1429 (5th Cir. 1996) (en
banc)). Parkland has adduced undisputed evidence
that Collier worked 179.25 hours of overtime during
his tenure at Parkland, and Collier has failed to make
any showing, other than by his subjective beliefs and
unsubstantiated allegations, that similarly-situated
employees outside of Collier’s protected class were
treated more favorably. See, e.g., Davis v. Metwest,
Inc., 1999 WL 102814, at *3 (N.D. Tex. Feb. 24, 1999)
(Fitzwater, J.) (holding that conclusory assertion that
employer “treated her worse than any white male
employees and used language that was derogatory in
nature . . . [was] insufficient to demonstrate that
Metwest treated similarly situated employees more
favorably than it treated Davis.”). Accordingly, to the
extent Collier bases his race discrimination claim on
the allegation that he was denied overtime, the court
concludes that Collier has failed to make out a prima
facie case. Parkland is therefore entitled to summary
judgment on this claim.
B
Parkland next moves for summary judgment on
Collier’s discrimination claim based on his August 25,
2014 written warning and August 24, 2015 final
warning, contending, inter alia, that these warnings
do not constitute adverse employment actions. “[A]

30a
plaintiff must show that he was subject to an ultimate
employment decision to establish a prima facie case of
discrimination.” Arrieta v. Yellow Transp., Inc., 2008
WL 5220569, at *4 (N.D. Tex. Dec. 12, 2008)
(Fitzwater, C.J.), aff’d sub nom. Hernandez v. Yellow
Transp., Inc., 670 F.3d 644 (5th Cir. 2012) (on
rehearing). The Fifth Circuit “has a strict
interpretation of the adverse employment element of
[the] prima facie intentional discrimination case”
under Title VII. Pegram v. Honeywell, Inc., 361 F.3d
272, 282 (5th Cir. 2004); see also Dixon v. Moore
Wallace, Inc., 2006 WL 1949501, at *8 (N.D. Tex. July
13, 2006) (Fitzwater, J.), aff’d, 236 Fed. Appx. 936 (5th
Cir. 2007). For purposes of a discrimination claim
brought under these statutes, “[a]dverse employment
actions include only ultimate employment decisions
such as hiring, granting leave, discharging,
promoting, or compensating.” McCoy v. City of
Shreveport, 492 F.3d 551, 559 (5th Cir. 2007) (per
curiam) (alteration in original; internal quotation
marks and citation omitted). “[A]n employment action
that does not affect job duties, compensation, or
benefits is not an adverse employment action for
purposes of a discrimination claim under Title VII.”
Dixon, 2006 WL 1949501, at *8 (quoting Pegram, 361
F.3d at 282) (internal quotation marks omitted); see
also Arrieta, 2008 WL 5220569, at *5 (holding that
“disciplinary warnings and negative performance
evaluations do not constitute adverse employment
actions because they have only a tangential effect, if
any, on ultimate employment decisions”).
Collier does not respond to Parkland’s
argument that the August 25, 2014 written warning
and August 24, 2015 final warning do not constitute
ultimate employment decisions. Nor does he present

31a
any evidence that these two disciplinary actions
affected his job duties, compensation, or benefits.14
Accordingly, the court grants Parkland’s motion for
summary judgment as to Collier’s race discrimination
claim based on the August 25, 2014 written warning15
and August 24, 2015 final warning.
C
Parkland moves for summary judgment on
Collier’s race discrimination claim based on his
termination, contending that Collier cannot establish
a prima facie case of race discrimination because he
was not replaced by an individual outside of his
protected class. Parkland maintains that Collier was
replaced by another African American male after his
termination—and, moreover, that he has failed to
14

In his response, Collier cites evidence that he believed
African American employees were unfairly disciplined; that, on
one occasion, he was called into Stetzel’s office after having to
leave early, but when his Hispanic coworker, Carlos Sanchez, did
the same thing, he was not disciplined; and that
he was the only employee that got written up
because of a radio violation. “Nobody else in the
entire—of the aides received any type of write-up
or anything because of a radio violation. It was
only myself.” Indeed, Defendant wrote Plaintiff
up for not answering on his radio when it was
later proven that his radio was not even
working[.]
P. Br. 20 (footnote omitted). But Collier neither argues nor
establishes that any of these instances of alleged unfair discipline
constitutes an actionable ultimate employment decision.
15

The court assumes arguendo that Collier’s
discrimination claim based on the August 25, 2014 written
warning is not time-barred.

32a
show that Parkland gave preferential treatment to
another
employee
under
nearly
identical
circumstances, i.e., that another ORA outside of
Collier’s protected class was similarly insubordinate
to his superior and other leaders after having received
a final warning and was not terminated.
Collier does not directly respond to Parkland’s
arguments; he addresses his termination only in the
context of his retaliation claim. Although Collier’s
failure to respond does not permit the court to enter a
“default” summary judgment on this claim, see, e.g.,
Tutton v. Garland Independent School District, 733 F.
Supp. 1113, 1117 (N.D. Tex. 1990) (Fitzwater, J.), “[a]
summary judgment nonmovant who does not respond
to the motion is relegated to h[is] unsworn pleadings,
which do not constitute summary judgment evidence,”
Bookman v. Shubzda, 945 F. Supp. 999, 1002 (N.D.
Tex. 1996) (Fitzwater, J.) (citing Solo Serve Corp. v.
Westowne Assocs., 929 F.2d 160, 165 (5th Cir. 1991)).
Moreover,
[i]f a party fails . . . to properly address
another party’s assertion of fact as
required by Rule 56(c), the court may . . .
(2) consider the fact undisputed for
purposes of the motion [and] (3) grant
summary judgment if the motion and
supporting materials—including the
facts considered undisputed—show that
the movant is entitled to it[.]
Fed. R. Civ. P. 56(e)(2)-(3).
Collier has not designated specific facts
sufficient to create a prima facie case of race
discrimination based on his termination. The court

33a
therefore grants Parkland’s motion and dismisses
Collier’s race discrimination claim to the extent it is
based on Collier’s termination.
VI
The court next considers Collier’s claim for
retaliation.
A
Because Collier relies on circumstantial
evidence to support his retaliation claim, he must
proceed under the familiar McDonnell Douglas burden
shifting framework. Collier must first demonstrate a
prima facie case of retaliation by showing that (1) he
engaged in a protected activity, (2) an adverse
employment action occurred, and (3) a causal link
existed between the protected activity and the adverse
employment action. See Walker v. Norris Cylinder
Co., 2005 WL 2278080, at *9 (N.D. Tex. Sept. 19, 2005)
(Fitzwater, J.) (citing Long v. Eastfield Coll., 88 F.3d
300, 304 (5th Cir. 1996)). As to the third element, the
requirement that a plaintiff show at the prima facie
case stage a “causal link” between a protected activity
and an adverse employment action is “much less
stringent” than the “but for” causation that the trier
of fact must find. See Montemayor v. City of San
Antonio, 276 F.3d 687, 692 (5th Cir. 2001); see also
Khanna v. Park Place Motorcars of Hous., Ltd., 2000
WL 1801850, at *4 (N.D. Tex. Dec. 6, 2000) (Fitzwater,
J.) (characterizing the prima facie case burden as
“minimal”).
If Collier establishes a prima facie case, the
burden shifts to Parkland to articulate a legitimate,
non-retaliatory reason for the action taken. See
Walker, 2005 WL 2278080, at *9. This burden is one

34a
of production, not of proof. See Wooten v. Fed. Express
Corp., 2007 WL 63609, at *16 (N.D. Tex. Jan. 9, 2007)
(Fitzwater, J.), aff’d, 325 Fed. Appx. 297 (5th Cir.
2009).
If Parkland meets its production burden, the
burden shifts back to Collier to produce evidence that
retaliation for his protected conduct, rather than
Parkland’s proffered legitimate non-retaliatory
reason, was the “but-for cause” of the adverse
employment action. See Univ. of Tex. Sw. Med. Ctr. v.
Nassar, 570 U.S. 338, 352 (2013) (“Title VII retaliation
claims require proof that the desire to retaliate was
the but-for cause of the challenged employment
action.”); see also, e.g., Coleman v. Jason Pharms., 540
Fed. Appx. 302, 304 (5th Cir. 2013) (per curiam) (“An
employee establishes pretext by showing that the
adverse action would not have occurred ‘but for’ the
employer’s retaliatory reason for the action.” (citing
Nassar, 570 U.S. at 352)). “In order to avoid summary
judgment, the plaintiff must show ‘a conflict in
substantial evidence’ on the question of whether the
employer would not have taken the action ‘but for’ the
protected activity.” Coleman, 540 Fed. Appx. at 304
(quoting Long, 88 F.3d at 308).
B
The court assumes arguendo that Collier has
made a prima facie showing of retaliation based on
Parkland’s issuance of a final warning on August 24,
201516 and termination of his employment on July 12,
2016. The burden of production therefore shifts to
16

The court assumes arguendo that the final warning and
termination together constitute an adverse employment action
for purposes of Collier’s prima facie case of retaliation.

35a
Parkland to produce evidence of a legitimate, nonretaliatory reason for issuing the August 24, 2015
final warning and terminating Collier’s employment.
Parkland has satisfied this obligation by producing
evidence that Collier was issued a final warning
because he had already received a written warning, he
failed to follow Parkland’s procedure for radio usage
and did not respond to multiple calls on the radio from
his supervisor, and he punched an OR wall in
frustration, and by producing evidence that,
consistent with Parkland’s Corrective Action
Procedure, Collier was terminated because it was
determined that he was insubordinate—i.e., he failed
to follow his supervisor’s directive and assignment to
work in Pod D despite being asked by two additional
leaders to perform this assignment—and he had
already received written and final warnings. The
burden now shifts to Collier to raise a fact issue on
whether retaliation was the but-for cause of the
August 24, 2015 final warning and his termination.
See id.
C
Collier contends that Parkland’s adverse
employment actions against him were taken in
retaliation for his protected actions, not as legitimate
discipline for rule violations. He posits that there are
factual discrepancies regarding the August 24, 2015
final warning; that he found it “suspicious” that he
received his final warning 364 days after his written
warning, which was just one day shy of when the prior
written warning would have “fall[en] off” his record, P.
Br. 21; that he refused to agree to the final warning
and has testified that his radio never rang, which is
why he did not answer it; that he had previously

36a
complained about Reyes multiple times for
discriminating against African American workers;
that the entire incident regarding his dismissal is
“overridden with factual discrepancies,” id. at 22; that
he refutes that he was told to go to Pod D; that Reyes
told him to go home or go complain to Stetzel; that he
disputes the factual testimony of each of Parkland’s
deponents and affiants; that everyone involved in his
termination was White or Hispanic; that Parkland
had never called the police to conduct counseling of
any White or Hispanic employees; that he was
terminated because he complained over and over
again about Parkland’s discrimination; and that
Reyes admitted that Parkland called the police only
because Collier “was making different kind of
comments about how frustrated he was with
management,” id. at 23.
Parkland argues in reply that, although Collier
finds the timing of his written warning to be
suspicious, he does not dispute that he engaged in
inappropriate behavior when he punched a wall on
August 6, 2015, that the discipline for this behavior
was warranted, or that a final warning was
appropriate and consistent with Parkland’s Corrective
Action Procedure. Regarding Collier’s termination,
Parkland contends that Collier’s disagreement with
Parkland’s reason for terminating him, even if based
on Collier’s professed innocence of any wrongdoing, is
insufficient to enable a reasonable jury to find that his
termination was pretextual, especially considering
Collier’s history of prior corrective action and the
numerous witness accounts regarding Collier’s
insubordinate behavior on June 30, 2016.

37a
D
Collier has not met his burden of introducing
evidence that would enable a reasonable jury to find
“but for” causation at the third step of the McDonnell
Douglas paradigm. In his response, Collier contends
that the August 24, 2015 final warning was retaliatory
because the timing was suspicious and because he had
“previously complained about Supervisor Reyes
multiple times for discriminating against Black
workers,” P. Br. 22. Collier does not dispute, however,
that he punched an OR wall “numerous times in
frustration,” on August 6, 2015, D. App. 138, or that
this behavior justified the issuance of the final
warning. He therefore cannot establish “but for”
causation with respect to the August 24, 2015 final
warning.
Regarding his termination, Collier contends
that the entire incident is “overridden with factual
discrepancies” and disputes the factual testimony of
each of Parkland’s deponents and affiants. P. Br. 22.
“It is well-settled, however, that a plaintiff’s selfserving denial of allegations of misconduct fails to
create an issue of fact as to pretext.” Plumlee v. City
of Kennedale, 795 F.Supp.2d 556, 565 (N.D. Tex. 2011)
(McBryde, J.) (citing Jackson v. CalWestern
Packaging Corp., 602 F.3d 374, 379 (5th Cir. 2010)). In
considering the results of an investigation into
employee misconduct, “[t]he question is not whether
an employer made an erroneous decision; it is whether
the decision was made with discriminatory motive.”
Mayberry v. Vought Aircraft Co., 55 F.3d 1086, 1091
(5th Cir. 1995). Merely disputing or denying the
underlying facts of an investigation, as Collier has
done, fails to create a fact issue as to the falsity of the

38a
defendant’s explanation. See Jackson, 602 F.3d at 379;
LeMaire v. La. Dep’t of Transp. & Dev., 480 F.3d 383,
391 (5th Cir. 2007). This is because anti-retaliation
laws “do not require an employer to make proper
decisions, only non-retaliatory ones.” LeMaire, 480
F.3d at 391. Collier neither argues nor adduces any
evidence that would enable a reasonable jury to find
that the individuals responsible for the decision to
terminate his employment—Ferrell, Henderson,
Bennett, and Stetzel—were motivated by a retaliatory
purpose as opposed to actually believing that Collier
had been insubordinate on June 30, 2016 and that
termination was appropriate under Parkland’s
Corrective Action Procedure.
In sum, Collier has failed to create a genuine
fact issue on the ultimate question of “but-for”
causation. He has failed to introduce evidence that
would enable a reasonable jury to find that the
proffered reason for his termination—insubordination
after having already received a final warning—was
not the real reason Parkland terminated him. And
Collier neither contends nor has introduced evidence
that he would not have been terminated “but for” his
having “complained over and over again about the
Defendant’s discrimination.” P. Br. 23. In other words,
based on the evidence in the summary judgment
record, no reasonable jury could find that Collier’s
complaints to Reyes or to any other individuals at
Parkland were the but-for cause of his termination.
VII
Finally, the court considers Collier’s hostile
work environment claim.

39a
A
Generally, to establish a prima facie case of a
hostile work environment, a plaintiff must show the
following:
(1) [he] belongs to a protected group; (2)
[he] was subjected to unwelcome
harassment;
(3)
the
harassment
complained of was based on race; (4) the
harassment complained of affected a
term, condition, or privilege of
employment; [and] (5) the employer
knew or should have known of the
harassment in question and failed to
take prompt remedial action.

Ramsey, 286 F.3d at 268 (citations omitted).17
“Harassment is based on race if ‘the complained-of
conduct had a racial character or purpose.’” King v.
Enter. Leasing Co. of DFW, 2007 WL 2005541, at *10
(N.D. Tex. July 11, 2007) (Fitzwater, J.) (quoting
HarrisChilds v. Medco Health Solutions, Inc., 2005
WL 562720, at *6 (N.D. Tex. Mar. 10, 2005) (Means,
J.)). Collier must demonstrate a “connection between
the allegedly harassing incidents and [his] protected
status.” Id. (citation omitted). Regarding the fourth
element,
[h]arassment affects a term, condition, or
privilege of employment if it is
sufficiently severe or pervasive to alter
the
conditions
of
the
victim’s
17

The fifth element need not be established if the
harassment is allegedly committed by the victim’s supervisor.
Wooten, 2007 WL 63609, at *19 (citing Celestine v. Petroleos de
Venezuella SA, 266 F.3d 343, 353-54 (5th Cir. 2001)).

40a
employment and create an abusive
working
environment.
Workplace
conduct is not measured in isolation. In
order to deem a work environment
sufficiently
hostile,
all
of
the
circumstances must be taken into
consideration.
This
includes
the
frequency of the discriminatory conduct;
its severity; whether it is physically
threatening or humiliating, or a mere
offensive utterance; and whether it
unreasonably
interferes
with
an
employee’s work performance. To be
actionable, the work environment must
be both objectively and subjectively
offensive, one that a reasonable person
would find hostile or abusive, and one
that the victim in fact did perceive to be
so.

Hernandez v. Yellow Transp., Inc., 670 F.3d 644, 651
(5th Cir. 2012) (citations and internal quotation marks
omitted). “A hostile work environment exists ‘when
the workplace is permeated with discriminatory
intimidation, ridicule, and insult, that is sufficiently
severe or pervasive to alter the conditions of the
victim’s employment and create an abusive working
environment.’” Stewart v. Miss. Transp. Comm’n, 586
F.3d 321, 328 (5th Cir. 2009) (quoting Morgan, 536
U.S. at 116).
The real social impact of workplace
behavior often depends on a constellation
of
surrounding
circumstances,
expectations, and relationships which
are not fully captured by a simple

41a
recitation of the words used or the
physical acts performed. Common sense,
and an appropriate sensitivity to social
context, will enable courts and juries to
distinguish between simple teasing . . .
and conduct which a reasonable person
in the plaintiff’s position would find
severely hostile or abusive.

Oncale v. Sundowner Offshore Servs., Inc., 523 U.S.
75, 81-82 (1998). Merely offensive conduct is not
actionable. See Harris v. Forklift Sys., Inc., 510 U.S.
17, 21 (1993). “[T]he Supreme Court has warned that
these high standards are intentionally demanding to
ensure that Title VII does not become a general civility
code, and when properly applied, they will filter out
complaints attacking the ordinary tribulations of the
workplace, such as the sporadic use of abusive
language.” Howard v. United Parcel Serv., Inc., 447
Fed. Appx. 626, 632 (5th Cir. 2011) (per curiam)
(citations and internal quotation marks omitted)
(quoting Faragher v. City of Boca Raton, 524 U.S. 775,
788 (1998)).
B
In support of his hostile work environment
claim, Collier contends that he saw the word “ni——r”
written inside of an elevator; that there were multiple
depictions of swastikas left up at Parkland’s facility
for eighteen months; and that a nurse called him “boy”
on two different occasions. Parkland moves for
summary judgment on Collier’s hostile work
environment claim, arguing, inter alia, that the
nurse’s calling him “boy” on two occasions in 2015 was
nothing more than an isolated comment that cannot
create a hostile work environment as a matter of law

42a
under Title VII or the TCHRA, and that the two
instances of racial graffiti Collier saw over a two-year
period were not sufficiently severe or pervasive to
constitute a hostile work environment.
Collier responds that use of the term “boy” is
“racially insulting and abusing as a matter of law,” P.
Br. 11; that after seeing the word “ni——r” carved into
an elevator, Collier immediately complained about it
to the Human Resources Department and Stetzel, yet
nothing was done for months; that after Collier
reported seeing swastikas drawn on the walls in an
area where Collier and his colleagues were “frequently
in and out of,” id. at 13,18 the swastikas remained up
for over 18 months; and that “Defendant’s failure to do
anything to remove them or investigate who was
responsible for putting them up where Defendant’s
employe[es] would have to see them daily establishes
Plaintiff’s prima facie case of a racially hostile work
environment,” id. at 15.
C
The court concludes that a reasonable jury
could not find that the alleged conduct was sufficiently
hostile or abusive to create a racially hostile work
environment. In response to Parkland’s summary
judgment motion, Collier relies on the following
evidence: (1) a nurse called him “boy” twice, and that
this is a racially insulting term; (2) he saw the word
“ni——r” carved into an elevator, and, despite his
complaints to the Human Resources Department, it
18

Collier contends that the swastikas were in an area
where he was assigned to work at least once or twice a week and
that he would need to go into that room four or five times
throughout the day.

43a
was not removed for months; and (3) he saw swastikas
drawn on the walls of an unfinished room that Collier
used frequently, and, despite reporting this
observation to Stetzel, the swastikas remained on the
wall for 18 months before they were painted over.
To determine whether a jury could find a
racially hostile work environment, the court considers
“all the circumstances.” Faragher, 524 U.S. at 787. As
noted above, “[w]orkplace conduct is not measured in
isolation. In order to deem a work environment
sufficiently hostile, all of the circumstances must be
taken into consideration.” Hernandez, 670 F.3d at 651
(citations and internal quotation marks omitted). A
reasonable jury could not find that these incidents,
individually or in combination with each other, which
occurred over the course of what appears to be a twoyear period, were sufficiently pervasive or severe to
establish a hostile work environment based on
Collier’s African American race, i.e., that the conduct
was sufficiently severe or pervasive so as to alter the
conditions of employment and create an abusive
working environment. Ramsey, 286 F.3d at 268.
Collier maintains that it is “undisputed” that he
was called “boy” by a colleague on “at least two
separate occasions.” P. Br. 11. But the evidence Collier
cites in support of this proposition indicates that he
could only recall one specific instance in which another
Parkland employee referred to him as “boy.” See P.
App. 75. Being called “boy” on one occasion by a fellow
employee is insufficiently pervasive to create a racially
hostile work environment.
Nor does the graffiti Collier witnessed rise to
the level required to create a hostile work
environment. It is undisputed that the term “ni——r”

44a
is racially offensive and universally condemned. See
Vess v. MTD Consumer Grp., Inc., 2019 WL 168552,
at *4 (5th Cir. Jan. 10, 2019) (“No word in the English
language is as odious or loaded with as terrible a
history.” (quoting Daso v. Grafton Sch., Inc., 181
F.Supp.2d 485, 493 (D. Md. 2002))); Fennell v. Marion
Indep. Sch. Dist., 804 F.3d 398, 409 (5th Cir. 2015)
(“[ni——r is] the most noxious racial epithet in the
contemporary American lexicon” (quoting Monteiro v.
Tempe Union High Sch. Dist., 158 F.3d 1022, 1034
(9th Cir. 1998))); E.E.O.C. v. Rock-Tenn Servs. Co.,
901 F.Supp.2d 810, 825 (N.D. Tex. 2012) (“the word
‘[ni——r]’ is pure anathema to African-Americans”).
And the court will assume for purposes of deciding
Parkland’s summary judgment motion that graffiti
depicting swastikas could be interpreted as offensive
to Collier based on his African American race.
Nonetheless, Collier has not produced any evidence
that any of the graffiti at Parkland was directed
toward him. See, e.g., Hudson v. Cleco Corp., 539 Fed.
Appx. 615, 620 (5th Cir. 2013) (per curiam) (affirming
summary judgment on hostile work environment
claim where, inter alia, Title VII plaintiff did not
present sufficient evidence that hangman’s noose was
directed at him). And even if he was exposed to it while
at work (even if not directed at him specifically), for
the severity and pervasiveness of a term, condition, or
privilege to indicate a hostile work environment, the
work environment must be “so heavily polluted with
discrimination as to destroy completely the emotional
and psychological stability of minority group workers.”
Vaughn v. Pool Offshore Co., 683 F.2d 922, 924 (5th
Cir. 1982) (citation omitted). In his deposition, Collier
testified that he “wasn’t happy with” the graffiti, but
when asked whether it interfered with his ability to

45a
perform work in any way, he explained “if it’s
something that I have to think of even a percentage,
then I say maybe yeah. Because it’s like it—it do—I’m
not 100 percent. I’m 99 percent because of it. So if I
have to say that, then maybe yeah.” D. App. 24. Given
Collier’s acknowledgment that his work performance
was affected by only a marginal one percent, and that
he has failed to produce any evidence suggesting the
impact of the graffiti on his emotional and
psychological stability was any greater, a reasonable
jury could not find that witnessing the graffiti at
Parkland was sufficiently severe and pervasive to
alter the terms and conditions of employment and
create an abusive working environment.
When determining whether a plaintiff has been
subjected to a hostile work environment, the court
focuses on factors such as the frequency of the conduct,
the severity of the conduct, the degree to which the
conduct was physically threatening or humiliating,
and the degree to which the conduct unreasonably
interfered with an employee’s work performance. See,
e.g., Ramsey, 286 F.3d at 268.
The question for the jury is not whether
the racial conduct at issue was
appropriate in the workplace or deserves
condemnation. The issue is whether,
under the totality of the circumstances,
the conduct was severe and pervasive
enough to alter the terms and conditions
of employment and create an abusive
working environment.

Jones v. Dallas Cty., 47 F.Supp.3d 469, 491 (N.D. Tex.
2014) (Fitzwater, C.J.). “Conduct that is not severe or
pervasive enough to create an objectively hostile or

46a
abusive work environment—an environment that a
reasonable person would find hostile or abusive—is
beyond Title VII’s purview.” Harris, 510 U.S. at 21.
Considering together all of the summary
judgment evidence on which Collier relies, the court
holds that a reasonable jury could not find that Collier
was subjected to a racially hostile work environment.
The court therefore grants summary judgment
dismissing Collier’s racially hostile work environment
claim.
***
For the reasons explained, the court grants
Parkland’s motion for summary judgment and
dismisses this action with prejudice by judgment filed
today.19

SO ORDERED.

June 6, 2019.

19

Collier’s unopposed motion to amend trial setting order
is denied without prejudice as moot.

47a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-10761

ROBERT COLLIER,
Plaintiff-Appellant
v.
DALLAS COUNTY HOSPITAL DISTRICT, doing
business as Parkland Health & Hospital System,
Defendant-Appellee

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CV-3362

Before KING, JONES, and COSTA, Circuit Judges.
PER CURIAM:*
*

Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5TH CIR. R.
47.5.4.

48a
Robert Collier, an African American employee
in Dallas County’s Parkland Health and Hospital
System, filed suit under Title VII after he was
allegedly fired for insubordination. Collier claims that
he was in fact fired in retaliation for complaining of
racial discrimination and that the hospital was a
hostile work environment. The district court granted
summary judgment for the hospital, finding that the
rationale given for Collier’s termination was not
pretextual and that his working environment was not
sufficiently abusive to constitute a hostile work
environment. We affirm.
I.
A.

Collier worked as an operating-room aide in
Dallas County’s Parkland Health and Hospital
System (Parkland) between January 2009 and July
2016, where he mainly prepared operating rooms for
patients. In August 2014, Collier received a written
warning after he allegedly failed to follow the
procedures for proper radio usage and failed to notify
his supervisor when he was leaving the department. A
year later, Collier received a “Final Warning” after he
allegedly failed to respond to multiple radio calls and
punched a wall. Collier denies being called on his radio
during these occasions but admits to punching the
wall.1

1

Parkland has acknowledged that the radios were not
always working, and Collier notes that he was once nearly
disciplined for not using his radio on a day when he had not been
given access to one.

49a
Around this time, Collier complained about
racial discrimination at Parkland. For example, he
submitted complaints to Parkland’s telephone hotline
stating that African American employees were treated
worse than Hispanic and Caucasian employees, and
he later filed another internal complaint making
similar allegations. Collier also reported that the Nword was scratched into an elevator, and that two
swastikas were drawn on the wall in a storage room
that he frequented. Collier reported this graffiti to
Richard Stetzel, who oversaw Collier’s supervisor,
Javier Reyes, and to human resources.2 Collier also
claimed that a nurse called him “boy” and that other
nurses called other African American employees “boy”
as well.
Parkland maintained that, although it
investigated numerous complaints from Collier, none
of them involved racially offensive comments or
graffiti. Nonetheless, Stetzel acknowledged that he
was aware of the swastikas in the storage room and
that he had planned to paint over them within six
months of first seeing them.
In June 2016, Collier had a disagreement with
Reyes, his supervisor, which eventually led to his
termination. According to Reyes, Collier refused to
work in Pod D, one of the four stations where
operating-room aides worked, and Collier later cursed
at Reyes, threatened him, and “became very
aggressive, violent, [and started] hitting the wall.”3
2

The N-word remained for several months before being
scratched out, and the swastikas remained for approximately
eighteen months.
3
Collier acknowledges disagreement with his supervisor
but denies being insubordinate. For example, Collier’s brief

50a
Other nearby employees confirmed that Collier
refused to work in Pod D, despite their attempts to
convince him to do so, and that Collier exhibited
threatening and aggressive behavior. The Dallas
County Hospital District Police Department was
summoned, and Collier was issued a citation for
assault and was escorted off the property.
Following this incident, Parkland concluded
that Collier had been insubordinate by refusing to
work in Pod D and failing to follow the instructions of
two additional supervisors, which ultimately
“impact[ed] patient care.” Four Parkland officials,
none of whom were Reyes, decided to terminate
Collier, and he was fired on July 12, 2016.4
B.

In December 2017, Collier filed suit against
Parkland for violations of Title VII of the Civil Rights
Act and the Texas Employment Discrimination Act,
claiming racial discrimination and retaliation. As
noted, Collier claimed that he was retaliated against
for reporting racial discrimination and claimed that
the presence of two swastikas and the N-word on
hospital walls, as well as being called “boy,” made
Parkland a hostile work environment.

states that “Defendant terminated Plaintiff in June 2016 due to
an argument he had with Supervisor Reyes regarding Supervisor
Reyes continually assigning Plaintiff to isolated Pod D, despite
Defendant’s policy to rotate the ORAs through the different
Pods.”
4
Employee Relations Advisor CaSaundra Henderson,
Employee Relations Director Arthur Ferrell, Interim Vice
President Brandon Bennett, and Director of Nursing Richard
Stetzel were responsible for Collier’s termination.

51a
Parkland moved for summary judgment, which
the district court granted. The district court found
that Collier could not establish either: (1) that
Parkland’s rationale for terminating Collier—i.e.,
insubordination—was pretextual; or (2) that Collier’s
working environment “was sufficiently hostile or
abusive to create a racially hostile work environment.”
This appeal followed.
II.

“We review a district court’s grant or denial of
summary judgment de novo, applying the same
standard as the district court.” Thomas v. Johnson,
788 F.3d 177, 179 (5th Cir. 2015) (quoting Robinson v.
Orient Marine Co., 505 F.3d 364, 365 (5th Cir. 2007)).
“Summary judgment is appropriate if ‘the pleadings,
depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to a
judgment as a matter of law.’” Robinson, 505 F.3d at
366. Accordingly, all “reasonable inferences should be
drawn in favor of the nonmoving party.” Tolan v.
Cotton, 572 U.S. 650, 660 (2014).
III.
A.

To establish a prima facie case of retaliation
under Title VII, a plaintiff must indicate that: “(1) he
participated in an activity protected by Title VII; (2)
his employer took an adverse employment action
against him; and (3) a causal connection exists
between the protected activity and the adverse
employment action.” McCoy v. City of Shreveport, 492
F.3d 551, 556-57 (5th Cir. 2007) (describing the

52a
burden-shifting framework set forth in McDonnell
Douglas Corp. v. Green, 411 U.S. 792, 802 (1973)).
Once a prima facie case is made, the employer must
then “articulate a legitimate, nondiscriminatory or
nonretaliatory reason for its employment action.” Id.
at 557. This burden is “only one of production, not
persuasion, and involves no credibility assessment.”
Id.
If the employer satisfies this burden, “the
plaintiff then bears the ultimate burden of proving
that the employer’s proffered reason is not true but
instead is a pretext for the real discriminatory or
retaliatory purpose.” Id. This requires the plaintiff to
“rebut each . . . nonretaliatory reason articulated by
the employer,” id., and to establish “that the adverse
action would not have occurred ‘but for’ the employer’s
retaliatory motive,” Feist v. La. Dep’t of Justice, 730
F.3d 450, 454 (5th Cir. 2013); see also Moore v. Eli
Lilly & Co., 990 F.2d 812, 815-16 (5th Cir. 1993) (“To
demonstrate pretext, the plaintiff must do more than
cast doubt on whether the employer had just cause for
its decision; he or she must show that a reasonable
factfinder could conclude that the employer’s reason is
unworthy of credence.” (cleaned up)).
B.

We conclude that Parkland offered legitimate,
nondiscriminatory reasons for Collier’s termination,
such as insubordination. See, e.g., Rochon v. Exxon
Corp., No. 99-30486, 1999 WL 1234261, at *3 (5th Cir.
Nov. 22, 1999) (“Violation of a work-rule is a
legitimate,
nondiscriminatory
reason
for
termination”). Accordingly, to prevail on his
retaliation claim, Collier must demonstrate that these
rationales were pretextual, see McCoy, 492 F.3d at

53a
557, and that his complaints of racial discrimination
were a but-for cause of his termination, see Feist, 730
F.3d at 454.
Although there are disputed facts regarding his
radio usage and his disagreement with Reyes, Collier
indisputably punched a wall, received a citation for
assault, and was determined to be insubordinate.5
Collier may quarrel with the specific details of these
events, but he ultimately admits that insubordination
could constitute a terminable offense, and he offers no
evidence indicating that Parkland’s rationales were
pretextual. Cf. McCoy, 492 F.3d at 557 (“[T]he plaintiff
must rebut each . . . nonretaliatory reason articulated
by the employer.”).
Collier does not, for example, assert that other
employees who were similarly insubordinate received
different treatment, or that other similarly situated
employees were fired for pretextual reasons. While
Collier alleges that Reyes, his supervisor, had a
retaliatory intent, four other individuals were
responsible for his termination. Collier does not
explain how these other individuals acted with a
retaliatory intent or how Reyes’s retaliatory intent
and role as a “critical person involved,” rather than
Collier’s observed insubordination, was the cause of
his termination. Accordingly, there is no fact issue
5

Collier insists that he was not insubordinate, but there
is not a genuine dispute of material fact regarding whether
Parkland could have concluded that he was insubordinate. As
noted, several observers reported his insubordination, which
influenced Parkland’s decision to terminate him. Collier does not
refute these witness reports and admits to arguing with his
supervisor. Such conduct qualifies as insubordination. See, e.g.,
Insubordination, Black’s Law Dictionary (11th ed. 2019) (“An act
of disobedience to proper authority . . . .”).

54a
regarding the but-for cause of Collier’s termination,
and Collier has failed to establish that his firing was
pretextual.6
IV.
A.

To establish a hostile-work-environment claim
under Title VII, a plaintiff must prove that:
(1) [he] belongs to a protected group; (2)
[he] was subjected to unwelcome
harassment;
(3)
the
harassment
complained of was based on race; (4) the
harassment complained of affected a
term, condition, or privilege of
employment; [and] (5) the employer
knew or should have known of the
harassment in question and failed to
take prompt remedial action.

Hernandez v. Yellow Transp., Inc., 670 F.3d 644, 651
(5th Cir. 2012) (quoting Ramsey v. Henderson, 286
F.3d 264, 268 (5th Cir. 2002)). The harassment must
be “sufficiently severe or pervasive to alter the
conditions of the victim’s employment and create an
abusive working environment,” and it cannot be
“measured in isolation.” Ramsey, 286 F.3d at 268
(citations omitted).

6

For these reasons, we need not address Parkland’s
argument that part of the retaliation claim is time-barred.
Nonetheless, Parkland’s argument is inapposite. The statutory
limitations period does not “bar an employee from using the prior
acts as background evidence in support of a timely claim,” which
Collier does here. Nat’l R.R. Passenger Corp. v. Morgan, 536 U.S.
101, 113 (2002).

55a
To determine whether a work environment is
actionably hostile, “all of the circumstances must be
taken into consideration,” such as “the frequency of
the discriminatory conduct; its severity; whether it is
physically threatening or humiliating, or a mere
offensive utterance; and whether it unreasonably
interferes with an employee’s work performance.”
Hernandez, 670 F.3d at 651 (citation omitted). “[T]he
work environment must be ‘both objectively and
subjectively offensive, one that a reasonable person
would find hostile or abusive, and one that the victim
in fact did perceive to be so.’” Id. (quoting Faragher v.
City of Boca Raton, 524 U.S. 775, 787 (1998)).
Moreover, “[t]he alleged conduct must be more than
rude or offensive comments [or] teasing.” Hockman v.
Westward Commc’ns, LLC, 407 F.3d 317, 326 (5th Cir.
2004). “These standards for judging hostility are
sufficiently demanding to ensure that Title VII does
not become a ‘general civility code.’” Faragher, 524
U.S. at 788 (citation omitted).
B.

Collier relies on three main facts to support his
hostile-work-environment claim: (1) a nurse called
him “boy”; (2) the N-word was scratched into an
elevator, and Parkland failed to removed it for months
despite his complaints; and (3) two swastikas were
drawn on the walls of a room that he worked in, and
Parkland waited eighteen months to paint over them
despite his complaints.
As Collier rightly observes, other courts have
found that the prolonged duration of racially offensive
graffiti, especially once it has been reported, could
militate in favor of a hostile-work-environment claim.
See, e.g., Watson v. CEVA Logistics U.S., Inc., 619

56a
F.3d 936, 943 (8th Cir. 2010) (“[T]he key difference
between graffiti and a racial slur should not be
overlooked: the slur is heard once and vanishes in an
instant, while graffiti remains visible until the
employer acts to remove it.” (internal quotation marks
omitted)); see also EEOC v. Rock-Tenn Servs. Co., 901
F. Supp. 2d 810, 827 (N.D. Tex. 2012) (“[I]f the graffiti
remains over an extended period of time, or the
employer’s response is repeatedly ineffective . . . , a
fact question arises as to the reasonableness of the
employer’s response . . . .” (citing Tademy v. Union
Pac. Corp., 614 F.3d 1132, 1149 (10th Cir. 2008))). As
Collier notes, the N-word remained for several months
before being scratched out, and the swastikas
remained for approximately eighteen months, despite
Parkland’s knowledge.
Moreover, other courts of appeals have found
instances where the use of the N-word itself was
sufficient to create a hostile work environment. See,
e.g., Ayissi-Etoh v. Fannie Mae, 712 F.3d 572, 580
(D.C. Cir. 2013) (Kavanaugh, J., concurring) (“As
several courts have recognized, . . . a single verbal (or
visual) incident can . . . be sufficiently severe to justify
a finding of a hostile work environment.”); Rodgers v.
W.–S. Life Ins. Co., 12 F.3d 668, 675 (7th Cir. 1993)
(“Perhaps no single act can more quickly ‘alter the
conditions of employment . . . ’ than the use of an
unambiguously racial epithet such as [the N-word] by
a supervisor.” (citation omitted)).
Though disturbing, the particular facts of this
case—the two instances of racial graffiti and being
called “boy”—are insufficient to establish a hostile
work environment under our precedent. For example,
we have found that the oral utterance of the N-word

57a
and other racially derogatory terms, even in the
presence of the plaintiff, may be insufficient to
establish a hostile work environment. See, e.g., Dailey
v. Shintech, Inc., 629 F. App’x 638, 640, 644 (5th Cir.
2015) (no hostile work environment where a coworker
called plaintiff a “black little motherf—r” and
threatened to “kick his black a—s”); Frazier v. Sabine
River Auth., 509 F. App’x 370, 374 (5th Cir. 2013)
(finding that use of the N-word, the word “Negreet,”
and a noose gesture “were isolated and not severe or
pervasive enough” to create a hostile work
environment); Vaughn v. Pool Offshore Co., 683 F.2d
922, 924-25 (5th Cir. 1982) (use of the N-word, “coon,”
and “black boy”).
The conduct that Collier complains of was not
physically threatening, was not directed at him
(except for the nurse’s comment), and did not
unreasonably interfere with his work performance. Cf.
Hernandez, 670 F.3d at 651. In fact, Collier admitted
that the graffiti interfered with his work performance
by only one percent. Accordingly, on the record before
us, Collier’s hostile-work-environment claim fails
because it was not “sufficiently severe or pervasive to
alter the conditions of the victim’s employment and
create an abusive working environment.” Ramsey, 286
F.3d at 268 (citation omitted).
V.

For the foregoing reasons, we AFFIRM the
judgment of the district court.

58a
APPENDIX D
[filed September 30, 2020]

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-10761

ROBERT COLLIER,
Plaintiff-Appellant
v.
DALLAS COUNTY HOSPITAL DISTRICT, doing
business as Parkland Health & Hospital System,
Defendant-Appellee

Appeal from the United States District Court
for the Northern District of Texas

ON PETITION FOR REHEARING EN BANC
(Opinion 4/9/20, 5 Cir., _______,________ F.3d_______)
Before KING, JONES, and COSTA, Circuit Judges.
PER CURIAM:

59a
(X) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Penal Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled
on Rehearing En Banc (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified
nto having voted in favor (FED. R. APP. P. and
5TH CIR. R. 35), the Petition for Rehearing En
Banc is DENIED.

